                                                                         Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                 Office of Inspector General
                Evaluation of DHS’ Security Program for Its Intelligence Systems
                                          OIG-05-04

The E-Government Act (Public Law 107-347) passed by the 107th Congress and signed into law by the
President on December 17, 2002, recognized the importance of information security to the economic and
national security interests of the United States. Title III of the E-Government Act, entitled the Federal
Information Security Management Act (FISMA), requires each federal agency to develop, document,
and implement an agency-wide security program. The agency’s security program should provide
security for the information and the information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or other source.

The OIG performed an independent evaluation of DHS’ security program for its intelligence systems as
required by FISMA. The overall objective of our evaluation was to identify whether DHS’ information
security program and practices for its intelligence systems were adequate and effective in protecting the
information from unauthorized access, use, disclosure, disruption, modification, or destruction. We
performed our work at the program and organizational component levels, focusing on DHS’ compliance
with FISMA for its intelligence systems containing Top Secret/Special Compartmented Information, and
in operation as of May 1, 2004. We also performed vulnerability assessments and tests of security
controls for a sample of five DHS intelligence systems. Furthermore, we evaluated DHS’ Plan of
Action and Milestones process for its intelligence systems and assessed DHS’ security training program.

Our review was conducted between April 2004 and July 2004 and represents a baseline evaluation of
DHS’ intelligence program according to FISMA. We recommended that DHS take certain steps to: (1)
provide adequate security for the information and information systems that support its intelligence
operations and assets; and (2) ensure the confidentiality, integrity, and availability of vital intelligence
information. DHS concurred with our recommendations. We are posting only this summary on the OIG
website because the report contains classified information and should not, consequently, be widely
disseminated. This report contains additional administrative issues and recommendations that were not
made a part of OIG-04-34.
